                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106

April 4, 2012

Report Number: A-07-12-00379

Mr. Peter S. Moore
Vice President of Government Programs
GHI Medicare
25 Broadway
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of Medicare Part B Pension Costs Claimed by Group Health
Incorporated for Plan Years 1987 Through 2008. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-12-00379
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Peter S. Moore


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
              OFFICE OF

         INSPECTOR GENERAL





   REVIEW OF MEDICARE PART B

    PENSION COSTS CLAIMED BY

   GROUP HEALTH INCORPORATED

FOR PLAN YEARS 1987 THROUGH 2008





                         Daniel R. Levinson

                          Inspector General


                             April 2012

                           A-07-12-00379

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND


Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. GHI also administers Medicare operations
under a Coordination of Benefits contract with CMS. In addition, GHI is a subcontractor on the
Medicare Secondary Payer Recovery and Retiree Drug Subsidy contracts.

During our audit period, GHI had three defined benefit pension plans. This report will address
the Medicare Part B pension costs claimed for all three defined benefit pension plans.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of Medicare Part B pension costs that GHI
claimed for Medicare reimbursement for plan years (PY) 1987 through 2008.

SUMMARY OF FINDING

GHI did not claim $1,101,097 of allowable Medicare Part B pension costs on its Final
Administrative Cost Proposal (FACP) for PYs 1987 through 2008. The underclaim occurred
primarily because GHI based its claim for Medicare reimbursement on an amount that did not
comply with the provisions of CAS 412 and 413. GHI claimed $1,050,149 of Medicare Part B
pension costs for Medicare reimbursement; however, we determined that the allowable Medicare
Part B pension costs were $2,151,246. As a result, GHI did not claim $1,101,097 of allowable
pension costs for PYs 1987 through 2008.

RECOMMENDATION

We recommend that GHI revise its FACPs for PYs 1987 through 2008 to increase Medicare
Part B pension costs by $1,101,097.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix E.




                                              ii
                                                       TABLE OF CONTENTS 




INTRODUCTION.. ........... ... ............... ........ ...... ........... ..... ......... ... .. .......... ... .. .. ................ ...... ..... .. 1 


           BACKGROUND ......... ................. ....................................... ... ...... ....... ................ ...... ........ . 1 

               Group Health Incorporated and Medicare ................ .. ........ .................................. .. 1 

               Medicare Reimbursement ........... ......... .......... ................................................... ...... 1 


           OBJECTIVE, SCOPE, AND METHODOLOGy .... ......................... .......... ........ .... ........... 1 

                Objective .......... ...... ........ ..... ....................... ................. .......... .. ............. ......... .. ........ 1 

                Scope ......................................... ................. ............... .. ....... .......... .................. ......... 1 

                Methodology .............. ... ................ ........................... .................. ... ............. .. ........... 2 


FINDING AND RECOMMENDATION ........................ ............................................................ 2 


           FEDERAL REQUIREMENTS .... ..... ... ................ ..... ...................................... .... .............. .. 3 


           ALLOWABLE PENSION COSTS NOT CLAIMED ...... .................................................. 3 


           RECOMMENDATION ... .............. ..... ....... ....................................................................... .. 4 


           AUDITEE COMMENTS ....... ................... .. ....... .. ... ... ........ ............. ....... ........................... .. 4 


APPENDIXES

     A: 	 ALLOCABLE MEDICARE PENSION COSTS FOR THE 

          LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED 

          FOR PLAN YEARS 1987 THROUGH 2008 


     B: 	 ALLOCABLE MEDICARE PENSION COSTS FOR THE 

          CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED 

          FOR PLAN YEARS 2003 THROUGH 2008 


     C: 	 ALLOCABLE MEDICARE PENSION COSTS FOR THE 

          EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES' RETIREMENT 

          PLAN FOR GROUP HEALTH INCORPORATED 

          FOR PLAN YEAR 2008 


     D: 	 MEDICARE PART B ALLOWABLE MEDICARE PENSION COSTS 

          FOR GROUP HEALTH INCORPORATED 

          FOR PLAN YEARS 1987 THROUGH 2008 


     E: 	 AUDITEE COMMENTS




                                                                           iii
                                      INTRODUCTION


BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. As of November 1, 1999, GHI also
administers Medicare operations under a Coordination of Benefits (COB) contract with CMS. In
addition, GHI performs Medicare work as a subcontractor on the Retiree Drug Subsidy and
Medicare Secondary Payer Recovery contracts as of February 17, 2005, and
August 15, 2006, respectively.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan, the GHI Cash Balance Pension Plan, and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan. Medicare segment employees participated in all three
defined benefit pension plans. This report will address the Medicare Part B pension costs
claimed for all three defined benefit pension plans.

Medicare Reimbursement

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of Medicare Part B pension costs that GHI
claimed for Medicare reimbursement for plan years (PY) 1987 through 2008.

Scope

We reviewed $1,050,149 of Medicare Part B pension costs that GHI claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACP) for PYs 1987 through 2008.



                                               1

Achieving our objective did not require that we review GHI’s overall internal control structure.
We limited our review to the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at GHI in New York, New York, during September 2008 and
July 2010.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit. We
identified the amount of pension costs claimed for Medicare reimbursement for PYs 1987
through 2008 by reviewing GHI’s FACPs and information from its accounting systems. We also
determined the extent to which GHI funded CAS-based pension costs with contributions to the
pension trust fund and accumulated prepayment credits.

We based our calculations of allowable pension costs on CMS Office of the Actuary’s (OACT)
computation of CAS-based pension costs for the Medicare segment and the “Other” segment.
OACT separately computed each segment’s CAS-based pension costs. OACT based its
computations on the results of our review of GHI’s pension segmentation requirements for each
of the three pension plans: the Local 153 Pension Plan for the period April 1, 1987, to
January 1, 2009 (A-07-11-00358), the GHI Cash Balance Pension Plan for the period
September 1, 2003, to January 1, 2009 (A-07-12-00374), the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan for the period January 1, 2008, to January 1, 2009
(A-07-12-00378), and our reviews of GHI’s unfunded pension costs for the Local 153 Pension
Plan for PYs 1987 through 2007 (A-07-12-00375) and the GHI Cash Balance Pension Plan for
PYs 2003 through 2007 (A-07-12-00376).

In performing our review, we used information that GHI’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined GHI’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

GHI did not claim $1,101,097 of allowable Medicare Part B pension costs on its FACPs for PYs
1987 through 2008. The underclaim occurred primarily because GHI based its claim for
Medicare reimbursement on an amount that did not comply with the provisions of CAS 412 and
413. GHI claimed $1,050,149 of Medicare Part B pension costs for Medicare reimbursement;



                                                2

however, we determined that the allowable Medicare Part B pension costs were $2,151,246. As
a result, GHI did not claim $1,101,097 of allowable pension costs for PYs 1987 through 2008.

FEDERAL REQUIREMENTS

The GHI Medicare contracts state: “The calculation of and accounting for pension costs charged
to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413.”

FAR 31.205-6(j) addresses allowability of pension costs by requiring that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

GHI did not claim $1,101,097 of Medicare Part B pension costs that were allowable for
Medicare reimbursement for PYs 1987 through 2008. For that period, GHI claimed Medicare
Part B pension costs of $1,050,149 for Medicare reimbursement. We calculated the allowable
Medicare Part B pension costs based on separately computed CAS-based pension costs for the
Medicare segment and the “Other” segment in accordance with CAS 412 and 413. Based on the
terms of the Medicare contract, the allowable Medicare Part B CAS-based pension costs for PYs
1987 through 2008 were $2,151,246.

The table on the following page compares allowable Medicare Part B CAS-based pension costs
with the pension costs claimed on GHI’s FACPs. Appendix D contains additional details on
allowable pension costs.




                                                3

   Comparison of Allowable Medicare Part B Pension Costs and Claimed Pension Costs

                                       Medicare Part B
                                        Pension Costs
                                   Allowable Claimed by
                    Plan Year      Per Audit      GHI          Difference
                       1987                $0           $0              $0
                       1988             1,417            0           1,417
                       1989                 0            0               0
                       1990                 0            0               0
                       1991                 0            0               0
                       1992                 0            0               0
                       1993                 0            0               0
                       1994                 0            0               0
                       1995           205,786       27,570        178,216
                       1996                 0            0               0
                       1997            13,649       11,563           2,086
                       1998            15,534       13,160           2,374
                       1999            41,802       35,199           6,603
                       2000            51,124       37,711         13,413
                       2001            68,493       33,631         34,862
                       2002            69,126       56,722         12,404
                       2003           130,715       67,826         62,889
                       2004           328,572       60,506        268,066
                       2005           328,981      115,770        213,211
                       2006           431,296      292,253        139,043
                       2007           386,431       11,797        374,634
                       2008            78,320      286,441      (208,121)
                      Total        $2,151,246 $1,050,149       $1,101,097

The Medicare contracts require GHI to calculate pension costs for Medicare reimbursement in
accordance with the provisions of CAS 412 and 413. However, GHI based its claim for Part B
Medicare reimbursement on an amount that did not comply with these CAS provisions. As a
result, GHI did not claim $1,101,097 of allowable pension costs.

RECOMMENDATION

We recommend that GHI revise its FACPs for PYs 1987 through 2008 to increase Medicare
Part B pension costs by $1,101,097.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix E.



                                              4
APPENDIXES

                 APPENDIX A: ALLOCABLE MEDICARE PENSION COSTS FOR THE                     Page 1 of 7
                 LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED
                             FOR PLAN YEARS 1987 THROUGH 2008

                                                        Total        “Other”        Medicare
     Date                    Description               Company       Segment        Segment

    1987            Contributions                 1/      $88,331       $88,331            $0
   7.00%            Discount for Interest         2/      ($2,889)      ($2,889)           $0
 April 1, 1987      Present Value Contributions   3/      $85,442       $85,442            $0
                    Prepayment Credit Applied                  $0            $0            $0
                    Present Value of Funding      4/      $85,442       $85,442            $0

 April 1, 1987      CAS Funding Target                         $0            $0            $0
                    Percentage Funded                                     0.00%         0.00%
                    Funded Pension Cost                                      $0            $0
                    Allowable Interest                                       $0            $0
     1987           Allocable Pension Cost                                   $0            $0

    1988            Contributions                              $0            $0            $0
   7.00%            Discount for Interest                      $0            $0            $0
 April 1, 1988      Present Value Contributions                $0            $0            $0
                    Prepayment Credit Applied     5/      $91,423       $91,423            $0
                    Present Value of Funding              $91,423       $91,423            $0

 April 1, 1988      CAS Funding Target            6/     $376,355      $376,355            $0
                    Percentage Funded             7/                     24.29%         0.00%
                    Funded Pension Cost           8/                    $91,417            $0
                    Allowable Interest                                       $0            $0
     1988           Allocable Pension Cost        9/                    $91,417            $0

     1989           Contributions                              $0              $0          $0
    7.00%           Discount for Interest                      $0              $0          $0
January 1, 1989     Present Value Contributions                $0              $0          $0
                    Prepayment Credit Applied                  $0              $0          $0
                    Present Value of Funding                   $0              $0          $0

January 1, 1989     CAS Funding Target                   $934,743      $846,224       $88,519
                    Percentage Funded                                     0.00%         0.00%
                    Funded Pension Cost                                      $0            $0
                    Allowable Interest                                       $0            $0
     1989           Allocable Pension Cost                                   $0            $0

     1990           Contributions                              $0              $0          $0
    7.00%           Discount for Interest                      $0              $0          $0
January 1, 1990     Present Value Contributions                $0              $0          $0
                    Prepayment Credit Applied                  $0              $0          $0
                    Present Value of Funding                   $0              $0          $0

January 1, 1990     CAS Funding Target                      $867           $867            $0
                    Percentage Funded                                     0.00%         0.00%
                    Funded Pension Cost                                      $0            $0
                    Allowable Interest                                       $0            $0
     1990           Allocable Pension Cost                                   $0            $0
                                                                                  Page 2 of 7


                                                 Total       “Other”        Medicare
     Date                  Description          Company      Segment        Segment

     1991         Contributions                        $0              $0          $0
    7.00%         Discount for Interest                $0              $0          $0
January 1, 1991   Present Value Contributions          $0              $0          $0
                  Prepayment Credit Applied            $0              $0          $0
                  Present Value of Funding             $0              $0          $0

January 1, 1991   CAS Funding Target            $1,566,401   $1,566,401            $0
                  Percentage Funded                               0.00%         0.00%
                  Funded Pension Cost                                $0            $0
                  Allowable Interest                                 $0            $0
     1991         Allocable Pension Cost                             $0            $0

     1992         Contributions                        $0              $0          $0
    7.00%         Discount for Interest                $0              $0          $0
January 1, 1992   Present Value Contributions          $0              $0          $0
                  Prepayment Credit Applied            $0              $0          $0
                  Present Value of Funding             $0              $0          $0

January 1, 1992   CAS Funding Target            $2,121,379   $2,121,379            $0
                  Percentage Funded                               0.00%         0.00%
                  Funded Pension Cost                                $0            $0
                  Allowable Interest                                 $0            $0
     1992         Allocable Pension Cost                             $0            $0

     1993         Contributions                        $0              $0          $0
    7.00%         Discount for Interest                $0              $0          $0
January 1, 1993   Present Value Contributions          $0              $0          $0
                  Prepayment Credit Applied            $0              $0          $0
                  Present Value of Funding             $0              $0          $0

January 1, 1993   CAS Funding Target            $2,349,569   $2,349,569            $0
                  Percentage Funded                               0.00%         0.00%
                  Funded Pension Cost                                $0            $0
                  Allowable Interest                                 $0            $0
     1993         Allocable Pension Cost                             $0            $0

     1994         Contributions                        $0              $0          $0
    7.00%         Discount for Interest                $0              $0          $0
January 1, 1994   Present Value Contributions          $0              $0          $0
                  Prepayment Credit Applied            $0              $0          $0
                  Present Value of Funding             $0              $0          $0

January 1, 1994   CAS Funding Target            $2,529,922   $2,529,922            $0
                  Percentage Funded                               0.00%         0.00%
                  Funded Pension Cost                                $0            $0
                  Allowable Interest                                 $0            $0
     1994         Allocable Pension Cost                             $0            $0
                                                                                         Page 3 of 7


                                                       Total        “Other”        Medicare
     Date                  Description                Company       Segment        Segment

     1995         Contributions                       $2,408,626    $2,233,457      $175,169
    7.00%         Discount for Interest                ($157,574)    ($146,114)     ($11,460)
January 1, 1995   Present Value Contributions         $2,251,052    $2,087,343      $163,709
                  Prepayment Credit Applied                   $0            $0            $0
                  Present Value of Funding            $2,251,052    $2,087,343      $163,709

January 1, 1995   CAS Funding Target                  $3,285,767    $3,046,807      $238,960
                  Percentage Funded                                     68.51%        68.51%
                  Funded Pension Cost                               $2,087,367      $163,711
                  Allowable Interest            10/                   $103,499        $8,117
     1995         Allocable Pension Cost                            $2,190,866      $171,828

     1996         Contributions                               $0              $0          $0
    8.00%         Discount for Interest                       $0              $0          $0
January 1, 1996   Present Value Contributions                 $0              $0          $0
                  Prepayment Credit Applied                   $0              $0          $0
                  Present Value of Funding                    $0              $0          $0

January 1, 1996   CAS Funding Target                          $0            $0            $0
                  Percentage Funded                                      0.00%         0.00%
                  Funded Pension Cost                                       $0            $0
                  Allowable Interest                                        $0            $0
     1996         Allocable Pension Cost                                    $0            $0

     1997         Contributions                         $900,032      $900,032            $0
    8.00%         Discount for Interest                 ($66,669)     ($66,669)           $0
January 1, 1997   Present Value Contributions           $833,363      $833,363            $0
                  Prepayment Credit Applied                   $0            $0            $0
                  Present Value of Funding              $833,363      $833,363            $0

January 1, 1997   CAS Funding Target                    $833,363      $833,363            $0
                  Percentage Funded                                    100.00%         0.00%
                  Funded Pension Cost                                 $833,363            $0
                  Allowable Interest                                   $47,224            $0
     1997         Allocable Pension Cost                              $880,587            $0

     1998         Contributions                       $1,024,332    $1,024,332            $0
    8.00%         Discount for Interest                 ($75,672)     ($75,672)           $0
January 1, 1998   Present Value Contributions          $948,660      $948,660             $0
                  Prepayment Credit Applied                   $0            $0            $0
                  Present Value of Funding             $948,660      $948,660             $0

January 1, 1998   CAS Funding Target                    $948,456      $948,456            $0
                  Percentage Funded                                    100.00%         0.00%
                  Funded Pension Cost                                 $948,456            $0
                  Allowable Interest                                   $53,746            $0
     1998         Allocable Pension Cost                            $1,002,202            $0
                                                                                  Page 4 of 7


                                                 Total        “Other”       Medicare
     Date                  Description          Company       Segment       Segment

     1999         Contributions                 $2,741,584    $2,741,584           $0
    8.50%         Discount for Interest          ($198,176)    ($198,176)          $0
January 1, 1999   Present Value Contributions   $2,543,408    $2,543,408           $0
                  Prepayment Credit Applied           $221          $221           $0
                  Present Value of Funding      $2,543,629    $2,543,629           $0

January 1, 1999   CAS Funding Target            $2,645,607    $2,645,607           $0
                  Percentage Funded                               96.15%        0.00%
                  Funded Pension Cost                         $2,543,751           $0
                  Allowable Interest                            $153,142           $0
     1999         Allocable Pension Cost                      $2,696,893           $0

     2000         Contributions                 $3,361,467    $3,361,467           $0
    8.50%         Discount for Interest          ($247,303)    ($247,303)          $0
January 1, 2000   Present Value Contributions   $3,114,164    $3,114,164           $0
                  Prepayment Credit Applied             $0            $0           $0
                  Present Value of Funding      $3,114,164    $3,114,164           $0

January 1, 2000   CAS Funding Target            $3,111,009    $3,111,009           $0
                  Percentage Funded                              100.00%        0.00%
                  Funded Pension Cost                         $3,111,009           $0
                  Allowable Interest                            $187,309           $0
     2000         Allocable Pension Cost                      $3,298,318           $0

     2001         Contributions                 $4,461,143    $4,461,143           $0
    8.50%         Discount for Interest          ($272,498)    ($272,498)          $0
January 1, 2001   Present Value Contributions   $4,188,645    $4,188,645           $0
                  Prepayment Credit Applied         $3,423        $3,423           $0
                  Present Value of Funding      $4,192,068    $4,192,068           $0

January 1, 2001   CAS Funding Target            $4,115,076    $4,115,076           $0
                  Percentage Funded                              100.00%        0.00%
                  Funded Pension Cost                         $4,115,076           $0
                  Allowable Interest                            $247,556           $0
     2001         Allocable Pension Cost                      $4,362,632           $0

     2002         Contributions                 $5,859,236    $5,859,236           $0
    8.50%         Discount for Interest          ($340,087)    ($340,087)          $0
January 1, 2002   Present Value Contributions   $5,519,149    $5,519,149           $0
                  Prepayment Credit Applied        $83,536       $83,536           $0
                  Present Value of Funding      $5,602,685    $5,602,685           $0

January 1, 2002   CAS Funding Target            $5,483,754    $5,483,754           $0
                  Percentage Funded                              100.00%        0.00%
                  Funded Pension Cost                         $5,483,754           $0
                  Allowable Interest                            $325,138           $0
     2002         Allocable Pension Cost                      $5,808,892           $0
                                                                                    Page 5 of 7


                                                 Total         “Other”        Medicare
     Date                  Description          Company        Segment        Segment

     2003         Contributions                  $7,664,540     $7,664,540           $0
    8.25%         Discount for Interest           ($428,754)     ($428,754)          $0
January 1, 2003   Present Value Contributions    $7,235,786     $7,235,786           $0
                  Prepayment Credit Applied        $129,040       $129,040           $0
                  Present Value of Funding       $7,364,826     $7,364,826           $0

January 1, 2003   CAS Funding Target             $8,230,907     $8,230,907           $0
                  Percentage Funded                                 89.48%        0.00%
                  Funded Pension Cost                           $7,365,016           $0
                  Allowable Interest                              $422,852           $0
     2003         Allocable Pension Cost                        $7,787,868           $0

     2004         Contributions                 $26,765,678    $26,363,666     $402,012
    8.25%         Discount for Interest         ($1,844,662)   ($1,816,956)    ($27,706)
January 1, 2004   Present Value Contributions   $24,921,016    $24,546,710     $374,306
                  Prepayment Credit Applied              $0             $0           $0
                  Present Value of Funding      $24,921,016    $24,546,710     $374,306

January 1, 2004   CAS Funding Target             $8,044,606     $7,670,300     $374,306
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $7,670,300     $374,306
                  Allowable Interest                              $448,233      $21,874
     2004         Allocable Pension Cost                        $8,118,533     $396,180

     2005         Contributions                  $6,000,000     $6,000,000           $0
    8.25%         Discount for Interest           ($457,275)     ($457,275)          $0
January 1, 2005   Present Value Contributions    $5,542,725     $5,542,725           $0
                  Prepayment Credit Applied      $7,757,042     $7,248,219     $508,823
                  Present Value of Funding      $13,299,767    $12,790,944     $508,823

January 1, 2005   CAS Funding Target             $7,757,042     $7,248,219     $508,823
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $7,248,219     $508,823
                  Allowable Interest                                    $0           $0
     2005         Allocable Pension Cost                        $7,248,219     $508,823

     2006         Contributions                  $4,174,556     $4,174,556           $0
    8.25%         Discount for Interest           ($318,153)     ($318,153)          $0
January 1, 2006   Present Value Contributions    $3,856,403     $3,856,403           $0
                  Prepayment Credit Applied      $6,787,383     $5,879,966     $907,417
                  Present Value of Funding      $10,643,786     $9,736,369     $907,417

January 1, 2006   CAS Funding Target             $6,787,383     $5,879,966     $907,417
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $5,879,966     $907,417
                  Allowable Interest                                    $0           $0
     2006         Allocable Pension Cost                        $5,879,966     $907,417
                                                                                                                   Page 6 of 7


                                                                    Total               "Other"            Medicare
           Date                     Description                    Company              Segment            Segment

          2007            Contributions                            $13,488,137          $13,488,137                $0
         8.25%            Discount for Interest                      ($717,211)           ($717,211)               $0
     January 1, 2007      Present Value Contributions              $12,770,926          $12,770,926                $0
                          Prepayment Credit Applied                 $6,029,009           $5,024,910        $1,004,099
                          Present Value of Funding                 $18,799,935          $17,795,836        $1,004,099

     January 1, 2007      CAS Funding Target                        $6,029,009           $5,024,910        $1,004,099
                          Percentage Funded                                                 100.00%           100.00%
                          Funded Pension Cost                                            $5,024,910        $1,004,099
                          Allowable Interest                                                     $0                $0
           2007           Allocable Pension Cost                                         $5,024,910        $1,004,099

          2008            Contributions                            $11,000,000          $11,000,000                $0
         8.25%            Discount for Interest                      ($556,572)           ($556,572)               $0
     January 1, 2008      Present Value Contributions              $10,443,428          $10,443,428                $0
                          Prepayment Credit Applied                   $126,151                   $0          $126,151
                          Present Value of Funding                 $10,569,579          $10,443,428          $126,151

     January 1, 2008      CAS Funding Target                          $126,151                    $0         $126,151
                          Percentage Funded                                                    0.00%          100.00%
                          Funded Pension Cost                                                     $0         $126,151
                          Allowable Interest                                                      $0               $0
           2008           Allocable Pension Cost                                                  $0         $126,151




ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
    5500 reports. The contributions included deposits made during the plan year and accrued contributions
    deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the
    contributions allocated to the Medicare segment during the pension segmentation reviews (A-07-11-00358,
    A-07-12-00374, and A-07-12-00378). The amounts shown for the “Other” segment represent the difference
    between the Total Company and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
    year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate)
    and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to
    the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan
    year to have been made on the final day of the plan year, consistent with the method mandated by the Employee
    Retirement Income Security Act.

 4/ The present value of funding represents the present value of contributions plus prepayment credits. This is the
    amount of funding that is available to cover the Cost Accounting Standards (CAS) funding target measured at
    the first day of the plan year.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s).
    A prepayment credit is created when contributions, plus interest, exceed the end-of-year CAS funding target.
    A prepayment credit is carried forward, with interest, to fund future CAS pension costs.
                                                                                                                 Page 7 of 7


 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of
    the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
    accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed
    the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we limited the
    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the
    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
    installments deposited within 30 days after the end of the quarter.
               APPENDIX B: ALLOCABLE MEDICARE PENSION COSTS FOR THE                     Page 1 of 3
             CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED
                          FOR PLAN YEARS 2003 THROUGH 2008

                                                         Total        “Other”       Medicare
      Date                   Description                Company       Segment       Segment

      2003          Contributions                  1/   $1,200,000    $1,098,769     $101,231
     8.00%          Discount for Interest          2/     ($88,889)     ($81,390)     ($7,499)
September 1, 2003   Present Value Contributions    3/   $1,111,111    $1,017,379      $93,732
                    Prepayment Credit Applied                   $0            $0           $0
                    Present Value of Funding       4/   $1,111,111    $1,017,379      $93,732

September 1, 2003   CAS Funding Target             5/     $906,321      $807,654      $98,667
                    Percentage Funded              6/                    100.00%       95.00%
                    Funded Pension Cost            7/                   $807,654      $93,734
                    Allowable Interest             8/                    $45,767       $5,312
      2003          Allocable Pension Cost         9/                   $853,421      $99,046

      2004          Contributions                       $2,804,772    $2,494,658     $310,114
     7.50%          Discount for Interest                ($195,682)    ($174,046)    ($21,636)
 January 1, 2004    Present Value Contributions         $2,609,090    $2,320,612     $288,478
                    Prepayment Credit Applied     10/     $270,128      $240,261      $29,867
                    Present Value of Funding            $2,879,218    $2,560,873     $318,345

 January 1, 2004    CAS Funding Target                  $2,887,566    $2,568,298     $319,268
                    Percentage Funded                                     99.71%       99.71%
                    Funded Pension Cost                               $2,560,850     $318,342
                    Allowable Interest                                  $123,281      $15,325
      2004          Allocable Pension Cost                            $2,684,131     $333,667

      2005          Contributions                       $3,134,294    $2,775,009     $359,285
     7.50%          Discount for Interest                ($218,672)    ($193,606)    ($25,066)
 January 1, 2005    Present Value Contributions         $2,915,622    $2,581,403     $334,219
                    Prepayment Credit Applied                   $0            $0           $0
                    Present Value of Funding            $2,915,622    $2,581,403     $334,219

 January 1, 2005    CAS Funding Target                  $2,909,452    $2,575,233     $334,219
                    Percentage Funded                                    100.00%      100.00%
                    Funded Pension Cost                               $2,575,233     $334,219
                    Allowable Interest                                  $136,809      $17,755
      2005          Allocable Pension Cost                            $2,712,042     $351,974

      2006          Contributions                       $3,134,296    $2,786,950     $347,346
     7.50%          Discount for Interest                ($140,016)    ($124,499)    ($15,517)
 January 1, 2006    Present Value Contributions         $2,994,280    $2,662,451     $331,829
                    Prepayment Credit Applied               $6,633        $5,857         $776
                    Present Value of Funding            $3,000,913    $2,668,308     $332,605

 January 1, 2006    CAS Funding Target                  $2,843,012    $2,510,407     $332,605
                    Percentage Funded                                    100.00%      100.00%
                    Funded Pension Cost                               $2,510,407     $332,605
                    Allowable Interest                                  $117,115      $15,517
      2006          Allocable Pension Cost                            $2,627,522     $348,122
                                                                                                                    Page 2 of 3


                                                                        Total               “Other”           Medicare
             Date                       Description                    Company              Segment           Segment

            2007              Contributions                             $5,568,673           $5,178,969          $389,704
           7.50%              Discount for Interest                      ($320,445)           ($298,020)         ($22,425)
       January 1, 2007        Present Value Contributions               $5,248,228           $4,880,949          $367,279
                              Prepayment Credit Applied                   $169,744             $148,978           $20,766
                              Present Value of Funding                  $5,417,972           $5,029,927          $388,045

       January 1, 2007        CAS Funding Target                        $3,171,913           $2,783,868          $388,045
                              Percentage Funded                                                 100.00%           100.00%
                              Funded Pension Cost                                            $2,783,868          $388,045
                              Allowable Interest                                               $139,979           $19,512
             2007             Allocable Pension Cost                                         $2,923,847          $407,557

            2008              Contributions                               $900,000             $900,000                $0
           7.50%              Discount for Interest                       ($62,791)            ($62,791)               $0
       January 1, 2008        Present Value Contributions                $837,209              $837,209                $0
                              Prepayment Credit Applied                  $223,107              $194,928           $28,179
                              Present Value of Funding                  $1,060,316           $1,032,137           $28,179

       January 1, 2008        CAS Funding Target                          $223,107             $194,928           $28,179
                              Percentage Funded                                                 100.00%           100.00%
                              Funded Pension Cost                                              $194,928           $28,179
                              Allowable Interest                                                     $0                $0
             2008             Allocable Pension Cost                                           $194,928           $28,179




ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500
    reports. The contributions included deposits made during the plan year and accrued contributions deposited after the
    end of the plan year but within the time allowed for filing tax returns. We determined the contributions allocated to
    the Medicare segment during the pension segmentation reviews (A-07-11-00358, A-07-12-00374, and
    A-07-12-00378). The amounts shown for the “Other” segment represent the difference between the Total Company
    and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to
    discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the
    interest as the difference between the present value of contributions (at the valuation interest rate) and actual
    contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the
    first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to
    have been made on the final day of the plan year, consistent with the method mandated by the Employee Retirement
    Income Security Act.

 4/ The present value of funding represents the present value of contributions plus prepayment credits. This is the
    amount of funding that is available to cover the Cost Accounting Standards (CAS) funding target measured at the first
    day of the plan year.

 5/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the
    Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).
                                                                                                                   Page 3 of 3


 6/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan
    year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with
    CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded
    as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimals.

 7/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 8/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion
    as the interest on contributions bears to the present value of contributions. However, we limited the interest in
    accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that
    would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited
    within 30 days after the end of the quarter.

 9/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

10/ A prepayment credit represents the accumulated value of premature funding from the previous year(s).
    A prepayment credit is created when contributions, plus interest, exceed the end-of-year CAS funding target.
    A prepayment credit is carried forward, with interest, to fund future CAS pension costs.
                 APPENDIX C: ALLOCABLE MEDICARE PENSION COSTS FOR THE                                                Page 1 of 2
            EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES' RETIREMENT PLAN 

                            FOR GROUP HEALTH INCORPORATED 

                                   FOR PLAN YEAR 2008


                                                                     Total               “Other”            Medicare
           Date                     Description                     Company              Segment            Segment

          2008            Contributions                       1/    $15,712,164          $15,264,731           $447,433
         7.50%            Discount for Interest               2/      ($769,092)           ($747,191)          ($21,901)
     January 1, 2008      Present Value Contributions         3/    $14,943,072          $14,517,540           $425,532
                          Prepayment Credit Applied                          $0                   $0                 $0
                          Present Value of Funding            4/    $14,943,072          $14,517,540           $425,532

     January 1, 2008      CAS Funding Target                  5/       $425,532                    $0          $425,532
                          Percentage Funded                   6/                                0.00%           100.00%
                          Funded Pension Cost                 7/                                   $0          $425,532
                          Allowable Interest                  8/                                   $0           $21,901
           2008           Allocable Pension Cost              9/                                   $0          $447,433




ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
    5500 reports. The contributions included deposits made during the plan year and accrued contributions deposited
    after the end of the plan year but within the time allowed for filing tax returns. We determined the contributions
    allocated to the Medicare segment during the pension segmentation reviews (A-07-11-00358,
    A-07-12-00374, and A-07-12-00378). The amounts shown for the “Other” segment represent the difference
    between the Total Company and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
    year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate)
    and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to
    the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan
    year to have been made on the final day of the plan year, consistent with the method mandated by the Employee
    Retirement Income Security Act.

 4/ The present value of funding represents the present value of contributions plus prepayment credits. This is the
    amount of funding that is available to cover the Cost Accounting Standards (CAS) funding target measured at the
    first day of the plan year.

 5/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of
    the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 6/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
    accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed
    the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to four decimals.

 7/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.
                                                                                                                 Page 2 of 2


8/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
   proportion as the interest on contributions bears to the present value of contributions. However, we limited the
   interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the
   interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
   installments deposited within 30 days after the end of the quarter.

9/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                  APPENDIX D: MEDICARE PART B ALLOWABLE MEDICARE PENSION COSTS                 Page 1 of 5
                                 FOR GROUP HEALTH INCORPORATED
                                 FOR PLAN YEARS 1987 THROUGH 2008

                                                                       “Other”     Medicare      Total
     Date                                Description                   Segment     Segment

 April 1, 1987    Local 153 Pension Plan Allocable Pension Cost              $0           $0

                  Total PY* Allocable Pension Cost                           $0           $0

                  Medicare Part B LOB** Percentage                1/       1.55%     100.00%

     1987         PY* Part B Allowable Pension Costs                         $0           $0             $0




 April 1, 1988    Local 153 Pension Plan Allocable Pension Cost   2/     $91,417          $0

                  Total PY* Allocable Pension Cost                3/     $91,417          $0

                  Medicare Part B LOB** Percentage                         1.55%     100.00%

     1988         PY* Part B Allowable Pension Costs              4/      $1,417          $0       $1,417




January 1, 1989   Local 153 Pension Plan Allocable Pension Cost              $0           $0

                  Total PY* Allocable Pension Cost                           $0           $0

                  Medicare Part B LOB** Percentage                         1.55%     100.00%

     1989         PY* Part B Allowable Pension Costs                         $0           $0             $0




January 1, 1990   Local 153 Pension Plan Allocable Pension Cost              $0           $0

                  Total PY* Allocable Pension Cost                           $0           $0

                  Medicare Part B LOB** Percentage                         1.55%     100.00%

     1990         PY* Part B Allowable Pension Costs                         $0           $0             $0




January 1, 1991   Local 153 Pension Plan Allocable Pension Cost              $0           $0

                  Total PY* Allocable Pension Cost                           $0           $0

                  Medicare Part B LOB** Percentage                         1.55%     100.00%

     1991         PY* Part B Allowable Pension Costs                         $0           $0             $0
                                                                                           Page 2 of 5




                                                                  “Other”      Medicare      Total
     Date                                Description              Segment      Segment

January 1, 1992   Local 153 Pension Plan Allocable Pension Cost          $0           $0

                  Total PY* Allocable Pension Cost                       $0           $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1992         PY* Part B Allowable Pension Costs                     $0           $0             $0




January 1, 1993   Local 153 Pension Plan Allocable Pension Cost          $0           $0

                  Total PY* Allocable Pension Cost                       $0           $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1993         PY* Part B Allowable Pension Costs                     $0           $0             $0




January 1, 1994   Local 153 Pension Plan Allocable Pension Cost          $0           $0

                  Total PY* Allocable Pension Cost                       $0           $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1994         PY* Part B Allowable Pension Costs                     $0           $0             $0




January 1, 1995   Local 153 Pension Plan Allocable Pension Cost   $2,190,866    $171,828

                  Total PY* Allocable Pension Cost                $2,190,866    $171,828

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1995         PY* Part B Allowable Pension Costs                $33,958     $171,828     $205,786




January 1, 1996   Local 153 Pension Plan Allocable Pension Cost          $0           $0

                  Total PY* Allocable Pension Cost                       $0           $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1996         PY* Part B Allowable Pension Costs                     $0           $0             $0
                                                                                           Page 3 of 5




                                                                  “Other”      Medicare      Total
     Date                                Description              Segment      Segment

January 1, 1997   Local 153 Pension Plan Allocable Pension Cost    $880,587           $0

                  Total PY* Allocable Pension Cost                 $880,587           $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1997         PY* Part B Allowable Pension Costs                $13,649           $0      $13,649




January 1, 1998   Local 153 Pension Plan Allocable Pension Cost   $1,002,202          $0

                  Total PY* Allocable Pension Cost                $1,002,202          $0

                  Medicare Part B LOB** Percentage                     1.55%     100.00%

     1998         PY* Part B Allowable Pension Costs                $15,534           $0      $15,534




January 1, 1999   Local 153 Pension Plan Allocable Pension Cost   $2,696,893          $0

                  Total PY* Allocable Pension Cost                $2,696,893          $0

                  Medicare Part B LOB** Percentage                     1.55%      99.53%

     1999         PY* Part B Allowable Pension Costs                $41,802           $0      $41,802




January 1, 2000   Local 153 Pension Plan Allocable Pension Cost   $3,298,318          $0

                  Total PY* Allocable Pension Cost                $3,298,318          $0

                  Medicare Part B LOB** Percentage                     1.55%      65.20%

     2000         PY* Part B Allowable Pension Costs                $51,124           $0      $51,124




January 1, 2001   Local 153 Pension Plan Allocable Pension Cost   $4,362,632          $0

                  Total PY* Allocable Pension Cost                $4,362,632          $0

                  Medicare Part B LOB** Percentage                     1.57%      35.54%

     2001         PY* Part B Allowable Pension Costs                $68,493           $0      $68,493
                                                                                                     Page 4 of 5




                                                                           “Other”      Medicare       Total
     Date                                Description                       Segment      Segment

January 1, 2002   Local 153 Pension Plan Allocable Pension Cost            $5,808,892          $0

                  Total PY* Allocable Pension Cost                         $5,808,892          $0

                  Medicare Part B LOB** Percentage                              1.19%      32.29%

     2002         PY* Part B Allowable Pension Costs                         $69,126           $0       $69,126




January 1, 2003   Local 153 Pension Plan Allocable Pension Cost            $7,787,868          $0
                  Cash Balance Pension Plan Allocable Pension Cost   5/      $853,421     $99,046

                  Total PY* Allocable Pension Cost                         $8,641,289     $99,046

                  Medicare Part B LOB** Percentage                              1.20%      27.28%

     2003         PY* Part B Allowable Pension Costs                        $103,695      $27,020      $130,715




January 1, 2004   Local 153 Pension Plan Allocable Pension Cost            $8,118,533    $396,180
                  Cash Balance Pension Plan Allocable Pension Cost         $2,684,131    $333,667

                  Total PY* Allocable Pension Cost                        $10,802,664    $729,847

                  Medicare Part B LOB** Percentage                              0.96%      30.81%

     2004         PY* Part B Allowable Pension Costs                        $103,706     $224,866      $328,572




January 1, 2005   Local 153 Pension Plan Allocable Pension Cost            $7,248,219    $508,823
                  Cash Balance Pension Plan Allocable Pension Cost         $2,712,042    $351,974

                  Total PY* Allocable Pension Cost                         $9,960,261    $860,797

                  Medicare Part B LOB** Percentage                              1.03%      26.30%

     2005         PY* Part B Allowable Pension Costs                        $102,591     $226,390      $328,981




January 1, 2006   Local 153 Pension Plan Allocable Pension Cost            $5,879,966    $907,417
                  Cash Balance Pension Plan Allocable Pension Cost         $2,627,522    $348,122

                  Total PY* Allocable Pension Cost                         $8,507,488   $1,255,539

                  Medicare Part B LOB** Percentage                              1.02%      27.44%

     2006         PY* Part B Allowable Pension Costs                         $86,776     $344,520      $431,296
                                                                                                                                 Page 5 of 5




                                                                                               “Other”         Medicare            Total
           Date                                   Description                                  Segment         Segment

     January 1, 2007     Local 153 Pension Plan Allocable Pension Cost                         $5,024,910       $1,004,099
                         Cash Balance Pension Plan Allocable Pension Cost                      $2,923,847         $407,557

                         Total PY* Allocable Pension Cost                                      $7,948,757       $1,411,656

                         Medicare Part B LOB** Percentage                                            0.53%          24.39%

           2007          PY* Part B Allowable Pension Costs                                       $42,128         $344,303         $386,431




     January 1, 2008     Local 153 Pension Plan Allocable Pension Cost                                 $0         $126,151
                         Cash Balance Pension Plan Allocable Pension Cost                        $194,928          $28,179
                         EmblemHealth Services Company, LLC, Employees
                         Retirement Plan Allocable Pension Cost                          6/             $0        $447,433

                         Total PY* Allocable Pension Cost                                        $194,928         $601,763

                         Medicare Part B LOB** Percentage                                            0.19%          22.25%

           2008          PY* Part B Allowable Pension Costs                              7/          $216          $78,104          $78,320

     *Plan Year

   **Line of Business



ENDNOTES

 1/ We calculated the allowable Part B pension costs of the Medicare and “Other” segments based on the Medicare Part B line of business
    (LOB) percentage of each segment. We determined the Medicare Part B LOB percentages based upon information provided by Group
    Health Incorporated (GHI).

 2/ The allocable Cost Accounting Standards (CAS) pension costs is the amount of pension cost that may be allocated for contract cost 

    purposes. The calculation of the Local 153 Pension Plan allocable pension cost appears in Appendix A.


 3/ The total plan year (PY) (April 1, 1988 to December 31, 1988) Medicare Part B allocable pension costs is the total of the segments’ costs
    from each pension plan. Beginning January 1, 1989, GHI’s PY changed to January 1 through December 31.

 4/ We computed the allowable Medicare Part B pension cost as the PY pension cost multiplied by the Medicare Part B LOB percentage.
    Pursuant to CAS 412 and 413, the total Medicare Part B allowable pension costs charged to the Medicare contract consisted of the
    Medicare segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

 5/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. The calculation of the
    GHI Cash Balance Pension Plan allocable pension cost appears in Appendix B.

 6/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. The calculation of the
    EmblemHealth Services Company, LCC, Employees’ Retirement Plan allocable pension cost appears in Appendix C.

 7/ The Medicare Part B contract was terminated on July 18, 2008. Therefore, the 2008 allowable pension costs were for a 7-month period
    only (January 1, 2008 through August 1, 2008).
                  APPENDIX E: AUDITEE COMMENTS 





GHI
February 17,2012

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services
Region VTI
601 East 121h Street, Room 0429
Kansas City, Missouri 64106


       Re:       OIG Report Number: A-07-12-00379
                 Review of Medicare Part B Pension Costs Claimed by Group Health Incorporated for
                 Plan Years 1987 tflrouglt 2008.


Dear Mr. Cogley:


This response is in regard to the subject report. GHI and its actuaries have carefully reviewed the report
and supporting work papers. As recommended by the OIG, GHI agrees to revise its FACP for Plan Years
1987 through 2008 to increase the Medicare Part B pension costs by $1, I0 I ,097.


Please let me know if you have any questions regarding this letter.



Sincerely,

 (?~~~
Peter S. Moore
Vice President




                                  Group 1/ellllll, 111corpornted
                              25 Broadway, New York, NY 10004-1 010
                                      www.ghimedicnre.com
